                                                                                                                                .
,
           ,..
                                            .,
                                                           ,*
                                                          %;Zc~:~r:
                                                          t-
                                                                                      ,*-   -           . ;
                                                                                                                                    .
                                                                                                                            -. : . . . ;....
                                                                                                                                               . . . . .

                                                                                                                                                   ......  ii:;:c~.%-:;.:33
                                                                                                                                                                             -.--

                                                                                                                                                                        .... :; ......
                                                                                                                                                                                             -&           ..   .%
                                                                                                                                                                                                                       ?
                                                                                                                                                                                                                           .
                                                                                                                                                                                                                                       ........
                                                                                                                                                                                                                                       <>:

                                                                                                                                                                                                                                          -::
                                                                                                                                                                                                                                                  -    .....
                                                                                                                                                                                                                                           :.! ,.z4-,;'i63     2
                                                                                                                                                                                                                                                               '."-.-.
                                                                                                                                                                                                                                                                            -
                                                                                                                                                                                                                                                                                  -*-*
                                                                                                                                                                                                                                                                                            :   "       ...........
                                                                                                                                                                                                                                                                                                              ...
                                                                                                                                                                                                                                                                                                                           ..; .
                                                                                                                                                                                                                                                                                                                          ;:1;.'5
                                                                                                                                                                                                                                                                                                                                          . .......
                                                                                                                                                                                                                                                                                                                                        ...  .. . .
                                                                                                                                                                                                                                                                                                                                              ;
                                                                                                                                                                                                                                                                                                                                                ,%          ,.>;
                                                                                                                                                                                                                                                                                                                                                                ,:
                                                                                                                                                                                                                                                                                                                                                                       '   -_.
                                                                                                                                                                                                                                                                                                                                                                             U '-"
                                                                                                                                                                                                                                                                                                                                                                        .:.. ...
                                                                                                                                                                                                                                                                                                                                                                            ....    ,;
                                                                                                                                                                                                                                                                                                                                                                                     <
                                                                                                                                                                                                                                                                                                                                                                                       -
                                                                                                                                                                                                                                                                                                                                                                                       ,
                                                                                                                                                                                                                                                                                                                                                                                           .*_.
                                                                                                                                                                                                                                                                                                                                                                                             !
                                                                                                                                                                                                                                                                                                                                                                                              --

                                                                                                                                                                                                                                                                                                                                                                                         :.??>, *-
                                                                                                                                                                                                                                                                                                                                                                                                        . -
                                                                                                                                                                                                                                                                                                                                                                                                 .:;,;c,-"+.;x
                                                                                                                                                                                                                                                                                                                                                                                                                '

                                                                                                                                                                                                                                                                                                                                                                                                              .:...
                                                                                                                                                                                                                                                                                                                                                                                                                             -1                y;?;.
                                                                                                                                                                                                                                                                                                                                                                                                                                                   V.'", .
                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                          .,          .-,.
                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                  -^'-'.-..
                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                   .
                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                           "


                                                                                                                                                                                                                                                                                                                                                      -- . .. ... . .- . . .. ... . . -. . . . . . . *-scQr
                                                                 .. ,                                                                                                                                                                                                                                              ...~:~~~-~."+:~:.,,, *. .                                                   ti::,T,$*$&;A~4~gig;2;~
                                                     , ,
    .p ~";;*> .:;>?                                                                                                                                                                                                                                                                                                                                                                                                   s...
          ....Q26?3;%li.-                                                                                                                                             $'.*. .>> ,.+. >:&
                                                                                                                                                                                                                                                  2        .
                                                                                                                                                                                                                                                                                                    <:.A       .i!                                  x         "'*. ..'             :
                                                                                                                                                                                                                                                                                                                                                                               -.........   &,                                  -.
                                                                                                                    . .....:....
                                                                                                                                                                                                                                                                                                                                                                                       ',          ,--:
                                                                               : :;
                                                                                                                                     i.                                                                                                                                                                                                                                                            ....
 -- d~,$z...L$       I
         . , , - ,+&<,
                        -
                      . :,; , , .,-.       :,<*,,F*<c.,$ $ ,&+. .;                          . :;$:;?!<:;         ..>.,,   . .: ..?:s-v:.
                                                                                                                                               e
                                                                                                                                                         . .??#
                                                                                                                                                                  _.". $ x.-.:--. "57,!<.&. : ,;.
                                                                                                                                                                                             ('4;..$<
                                                                                                                                                                                                                    2 .:,. .....
                                                                                                                                                                                                                                           ;..
                                                                                                                                                                                                                                                                                                          .... ......'
                                                                                                                                                                                                                                                                                                                       .                         .  .                  ...                  a;-

                                                                                                                                                                                                                                                                                                                                                                                                          .......,.-. ;,."..
                                                                                                                                                                                                                                                                                                                                                                                                                             : ","
                                                                                                                                                                                                                                                                                                                                                                                                                                  .                                           'J.                                c.&&ICr,.,>:*xsr

                                                                                                                    -.
                                                                                                                                              .>.>:.,
 ..'
                                                                               ,                                                                            ...               :.q:?.;.Jc.;                     %-                            ,-
                                                                                                                                                                                                                                                                                                                                              ...#..       .?.               -.L                                        -*. i                              ...*                      c.>.:>.;,:
                                                                              ;, *,,.>,, :;;>%;.2\.'~,?.
                                                                                                                                                                                                                                                                                                                                                                                             >?
..........                                                                                                                                                                                                                                                              $                                                                                                                                                                                             w...,,                                         -
                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                     %
                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                  .,.+,.
.<;
F...$..   ~,
       .,;r
             -.,;, ..,::,,
         .<." ,":;.y,   Ty;?,?
                   >wwG-2c;
                                 L ~ ;&>* * > " 3;. .
                        ~ c 5TT;."
                               ,.<*.-,+:::*
                     .,:- >.:g..-
                                                            >.: ... <. ..,.:.,
                                                .- . ,. . ., .. .....
                                                           ...?,,t          ..L,.
                                                                              -.%<:
                                                                                        .    .
                                                                                        ,;..;<b;pb7"
                                                                                                        ,

                                                                                                               L$$,.<.+:i;:2*$!?f:;
                                                                                                                    9
                                                                                                                               . . . . . ">>
                                                                                                                                            .
                                                                                                                                                 <;   ;;..::+.;.{<+:$:?.;<;;
                                                                                                                                                        ;...      ,
                                                                                                                                                                                                      '
                                                                                                                                                                                                         ., . . . 2. ;..- :.: -
                                                                                                                                                                                        ?-5r<.:,.:?..:.:.~-.;4.:
                                                                                                                                                                                                                  .    -..2.
                                                                                                                                                                                                                                                   1..          L_                        ' '

                                                                                                                                                                                                                                                                                                                                                       ..;.L<p,

                                                                                                                                                                                                                                                                                                                                                                   .   .
                                                                                                                                                                                                                                                                                                                                                                       ,
                                                                                                                                                                                                                                                                                                                                                                                   ,. -.
                                                                                                                                                                                                                                                                                                                                                                                   .   , .7 :.:. .: :.
                                                                                                                                                                                                                                                                                                                                                                                            . . , . . *.
                                                                                                                                                                                                                                                                                                                                                                                                                             ,.        .   ,


                                                                                                                                                                                                                                                                                                                                                                                                                                      .., , . .
                                                                                                                                                                                                                                                                                                                                                                                                                                               ,               .., .-< .;'           ;
                                                                                                                                                                                                                                                                                                                                                                                                                                                                                         .                *?Y     .., " .F,           .".&$.;>:A"
                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                          ,+
                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                       i

                      . . .- , ,: .........."...
   - .,. . .. '.:.'.,,,.,
                                                                            ?
                                                                              -
                                                                            ..'
                                                                                                         .::       ..;*.:
                                                                                                               . ..:;:
                                                                                                      ;..:c..';&      . . .,.'..                   ;.
                                                                                                                                                   .J.
                                                                                                                              . . .. .. . . . . . ., . . . .
                                                                                                                                                                           . .::,:.
                                                                                                                                                                                    >.,,.' .          :
                                                                                                                                                                                          . . . . . . . . .::.
                                                                                                                                                                                                               ..          :;
                                                                                                                                                                                                                                                           .....
                                                                                                                                                                                                                                                   ;.......A                                                        .At<.,          ,    ,


                                                                                                                                                                                                                                                                                                                                                                                                  .                                    ....
                                                                                                                                                                                                                                                                                                                                                                                                                                                       ,
                                                                                                                                                                                                                                                                                                                                                                                                                                                               1,               .,,?, , .,          ., ,!,-,.:?-*.
                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                  ....
                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                      .: ,.
                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                               ",*
                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                              ; ..5
                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                       I


                     . . ..
!k2t.>;:g:-.                              > ,,,> q,> *.:r.:
                                                                                                                                 .. .>                                                                                                                                                                                                                                        .                  .                                                                                                                           ,,r.~.r
                                                                                                                                                                                                                .
                                                                                                                                                                                                                                                  :'
                                                                                                                                                                              *                                                                                                                                                                                                                                                                                                                   ,

                                 . .- . .. .. .. . . '.                                                        .,:> '.:.!
                                                                                                                                                                .                                              7                                                                                      ,                             '                                  .
                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                   -1              A,@.:      Y
 . . . . .....
          , -

        ....
- >-!?.,. :. -. .     , :-:'. <-.-.,
                   .it.
                             <
                                 <
                           <; .' . .
                                     :.
                                          i . . ' . Y .
                                      . . . . .
                                                                                            .   .           .                             1 .
                                                                                                                                          :,
                                                                                                                                                               '


                                                                                                                                                       7 ' ? " "7                                 '
                                                                                                                                                                                                   ,.

                                                                                                                                                                                                               .                              . . . . .                                                                                                                                                                                                                       .. -..
                                                                                                                                                                                                                                                                                                                                                                                                                                                                                    .;
                                                                                                                                                                                                                                                                                                                                                                                                                                                                                      . . . .
                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                 , ,f%<;gz.;$:;;,:
                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                  . 2

                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                       .c...:i.&di$[;            . ... s
                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                              :*. 8
                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                        .\ ,:<. .--*'.&-.. .;9jp,.
                                                                                                                                                                                                                                                                                                                                                                                                                                                                               . . . . . . . ......: . ,.:y
                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                 ...                 .                                 ,
                                                 .:, ..-
                                                                                                                                    . , , _
                                                                                                                                                   . . . . .
. .,. ...-..        ,: .
        .,, . . ,<:;$$.                                                                                                                                    .                                                                                                                                                                                                                                                                                                                            . . . . . . >. ;. > .2<;~;?>
                                                                                                                                                                   .
                     ,           ,,                        "
                                                                                                                                                           ,                                                                                                                                                                                                                                                                                                                              ':' . :.+..iL?;g:;
                                                                                                                                                                                                               . , ..
                                  .
                                                                                                                                                                                                                                                  .                 .                 .
                                      \


 - . . :. .
                                                                                                                                                                                                                                                                                                                                                                                                                                                                                 ..
                                                                                                                                                                                                                                                                                                                                                                                                                                                                                    .
                                                                                                                                                     '
                         .    .:-<;                                                                                                                             >. ,                     ..                                                                                                                                                                                                                                                                ,          ,                     ..,,La. :: .&-x.".mt:'.
                                                                                                                                        . ... ... . .. . . . \.........
                                                                                                                                            :
    .                                                                                                                                                                                                                                                                                                     .           .                                                                                                                                                  . .,. . . . ,. .-.. . .:. ,:.-r %.t.%.!.
                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                      ' 7 : 5,


          .                                                                                                                                                                                                                                                                 .:
     ,. r,.c..:.
, ,.;.<r   +
            ,' . ,y;  . 5-..,-. . .
    .- .,:. ,.'?.;: ' -: -' .....:                                                                  .
                                                                                                        .               ,
                                                                                                                        .                                     . ...
                                                                                                                                                                                             I                                                             .       . .
                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                          :;            .......
                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                          .                                            i
                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                  . . .'.. . . . . . !.*<
                                                                   :.,,                                                                      .         .
                                                                                                                                                          -. ..,.: .!$,                                                                ,
                                                                                                                                                                                                                                                                                            .                  %
                                                                                                                                                                                                                                                                                                                          . .. .
                                                                                                                                                                                                                                                                                                                                                                                                                                                                      ,
                                                                                                                                                                                                                                                                                                                                                                                                                                                                      -.      3
                                                                                                                                                                                                                                                                                                                                                                                                                                                                                %,~:...
                                                                                                                                                                                                                                                                                                                                                                                                                                                                                    ,   .: .,;:;-? ....-.2:&7$2
    .
    I-.    I
            .ii-..
                 .
                   *.. .-2
                   --    :
                           .........,...
                             .            ..
                                                     '

                                                                                                        ."      .       .
                                                                                                                                                                      .
                                                                                                                                                                       . &        ..                                           C              I
                                                                                                                                                                                                                                                                                *,;
                                                                                                                                                                                                                                                                                      ,
                                                                                                                                                                                                                                                                                                                                                                                                                                                                       :
                                                                                                                                                                                                                                                                                                                                                                                                                                                                                      ,
                                                                                                                                                                                                                                                                                                                                                                                                                                                                                ...........       .
                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                          ,,?.* %
                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                     .::-.<,..*
                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                          .
                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                              .,,- ..,-.
                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                  .      :
                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                         I          .
                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                       ... :'.Ah..
                                               "...... . "
                                                                        I
                                                 ,                                                                                                              .                                                                                                                                                                                                                                                                                                                                                                  ,?.,'I

                                                                                                                                                           - ........
                                                                                                                                                           .    .                                                                                                                                                                                 .        .                                                                                                                                          -
                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                       . . ..:.'*.  *$;$?; - ....
                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                              .- .,.'>..*..                            ,,,<
                                                 .             .            .
                                                                                                                                                           .       .
                                                                                                                                                                       .. . .                                                          .                   .
                                                                                                                                                                                                                                                                                                                                                                                                                                                                                         .. . . .. . . '.. , \_,.    .x '2..                   ~

                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                  ..
               .         .            .
                                      I
                                                .          I        .
                                                                                                                                                                                                      .            .   .           .          .        .        .                                                                                                                                                                                                               .
                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                             .                                                :,,
                                                                                                                                                                       '                                                                                                                                                                                                                                                                                   ...                                  .....
                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                      ,
                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                     j i
                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                           :,I
                                      . . .
                                                                                                                                                                        :               CLOSEOUT FOR M-93070039                                                                                                                                                                                                                                    .            0 .       '                                       "
                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                       .
                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                       .
                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                             .
                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                              .    ...        ,,
                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                              ..:I 1




                                                         5 m the stolen experimental idea in an articleLhe co-authored with other scientists.
                                                                                                                                                    . .?




                                                                 The complainant said the subject contacted her to propose that they consider
                                                         submitting a joint application to NSF. In response to the subject's suggestion that they
                                                         exchange grant proposals, she sent him a copy of her pending NSF proposal, which was later
                                                         funded. After they exchanged proposals, she heard nothing further fiom the subject. About a
                                                         year later the complainant discovered the subject's co-authored article that reported results
                                                         from several experiments, one of which appeared similar to one experimental idea she
                                                         presented in the NSF proposal she sent to the subject. The subject's co-authored article had
                                                         been submitted for publication about two months aRer the complainant's NSF proposal was
                                                         funded, and about seven months after she sent a copy of her proposal to him. Also, she noted
                                                         that one paper cited in the subject's co-authored article as support for the experimental idea, in
                                                         fact, did not support it. The complainant said that, although it was possible the subject
                                                         developed independently the same experimental idea, she thought that the time between his
                                                         receipt of her NSF proposal and his co-authored submission seven months later as well as the
                                                         use of a paper cited as support for the idea that did not support it, suggested that he stole her
                                                         experimental idea.

                                                                OIG noted that the subject was the third of three authors on his co-authored article.
                                                         OIG determined that none of the authors, including the subject, ever reviewed any of the
                                                         complainant's.NSF proposals.

                                                                 OIG learned that the experimental approaches described to test the experimental idea
                                                         were different in the subject's co-authored article and in the complainant's NSF proposal.
                                                         This lack of similarity suggested that the subject could have developed the experimental idea
                                                         independently.




                                            Y

                                                                                                                                                                                                                                       Page 1 of 2
                             CLOSEOUT FOR M-93070039

         The complainant pointed out a paper cited in the subject's co-authored article in
support of the experimental idea. She claimed that the paper did not support that idea, and
that this fact strengthened her allegation that the idea had been taken from her proposal.
However, OIG learned that the subject herself had cited the same paper in an earlier proposal
in support of the same experimental idea. Neither the subject nor his co-authors had the
opportunity to read that proposal, nor was the paper cited in the proposal the complainant sent
the subject. Hence, it seems that the complainant and the subject, with his co-authors,
independently discovered this reference and similarly misinterpreted it. We concluded that
the subject's use of this paper did not add to the credibility of the complainant's allegation, and
would even help to support the subject's independent discovery of the experimental idea.

      OIG considered contacting the subject to ask for additional information. However,
OIG decided that 1) because the available information did not support the allegation of
misconduct in science, and 2) because the complainant, as the subject's only source of her
NSF proposal, would be easily identified as the source of the allegation, the available
information was sufficient to close this case.

       This inquiry was closed and no further action will be taken.

cc: Staff Scientist, Deputy AIG-Oversight, AIG-Oversight, IG




                                       Page 2 of 2
